seoamme  (COCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B gists contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
Nos. 21-376, 21-377, 21-378, 21-380

DEB HAALAND, SECRETARY OF THE INTERIOR, et al.,
Petitioners,
v.
CHAD EVERET BRACKEEN, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICI CURIAE OF
GOLDWATER INSTITUTE, TEXAS PUBLIC POLICY FOUNDATION, AND CATO
INSTITUTE IN SUPPORT OF STATE OF TEXAS AND BRACKEEN, ET AL. in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5986 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 8th day of October, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

 

A GENERAL NOTARY-State cf Nebraska Kenee. Xe ig Z g
RENEE J. GOSS 9 .
‘My Comm. Exp. September 5, 2023 *

Notary Public Affiant 41455
